HHS/OIG-AUDIT--Clinical Laboratory Services Under West Virginia's Medicaid Program for CYs 1993 and 1994 (A-03-96-00203)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Clinical Laboratory Services Under West Virginia's Medicaid Program for Calendar Years 1993 and 1994," (A-03-96-00203)
March 19, 1997
Complete
Text of Report is available in PDF format (238K). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of the West Virginia Department of Health and Human Resources (State agency)
reimbursements for outpatient clinical laboratory services under the Medicaid program. The objective of our review was
to determine the adequacy of procedures and controls over the processing of Medicaid payments to providers in Calendar
Years (CY) 1993 and 1994 for outpatient clinical laboratory services involving chemistry tests.
Our review disclosed that the State agency lacked adequate procedures and controls to ensure that chemistry tests were
reimbursed in accordance with Section 6300 of the State Medicaid Manual which requires State agencies to ensure that Medicaid
reimbursements for clinical laboratory tests do not exceed amounts recognized by the Medicare program. The Medicare regulations
require that laboratory tests, which are available as part of a multichannel chemistry panel, be bundled into and reimbursed
at a lesser panel fee rather than being reimbursed at higher individual test fees. The State agency did not have adequate
controls to ensure that chemistry tests are bundled for reimbursement purposes.
We selected a stratified sample of 100 chemistry claims for more than one individual test or panel, or for a panel and
individual tests for the same recipient on the same date of service by the same provider. We considered these claims to
be potential payment errors because the probability existed that the claims should have been reimbursed at a panel fee
rather than at higher individual test fees.
We found that all 100 claims were overpaid since the chemistry tests were available as part of an automated multichannel
chemistry panel. We also found that for 18 of the chemistry claims the State agency paid providers higher fees than the
West Virginia Medicare carrier (Nationwide Mutual Insurance Company) clinical laboratory fee schedule prices.
In our opinion, the overpayments occurred because the State agency: (1) did not have adequate edits to detect chemistry
tests that should have been bundled into a single automated multichannel panel chemistry test code for reimbursement purposes;
(2) did not consider for bundling purposes all chemistry tests identified by the local Medicare carrier as being suitable
for bundling; and (3) reimbursed some chemistry tests at fees higher than those established by the local Medicare carrier.
Projecting the results of our statistical sample over the population of similar claims using standard statistical methods,
we estimated that the State agency overpaid providers $1,378,601 (Federal share $1,047,789).
We recommended that the State agency: (1) implement a policy change that would clearly define and mandate the use of bundled
services for chemistry tests, (2) install edits to detect and prevent payments for unbundled services; (3) recover overpayments
for clinical laboratory services identified in this review; and (4) make adjustments for the Federal share of the amounts
recovered by the State agency on its Quarterly Report of Expenditures to the Health Care Financing Administration (HCFA).
The State agency responded to a draft of this report and concurred with three of our four recommendations. The State agency
did not agree to recover overpayments for clinical laboratory services identified by our review because it did not agree
with our audit process. We have summarized the State agency's response along with our comments after the Conclusions and
Recommendations section of this report.